<html>
<title> - 18 YEARS LATER: THE STATE OF HOMELAND SECURITY AFTER 9/11</title>
<body><pre>[Senate Hearing 116-397]
[From the U.S. Government Publishing Office]




                                                        S. Hrg. 116-397
 
                      18 YEARS LATER: THE STATE OF
                      HOMELAND SECURITY AFTER 9/11

=======================================================================

                             FIELD HEARING

                               before the

                              COMMITTEE ON
               HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS


                             FIRST SESSION

                               __________

                           SEPTEMBER 9, 2019

                               __________

        Available via the World Wide Web: http://www.govinfo.gov
        

                       Printed for the use of the
        Committee on Homeland Security and Governmental Affairs
        
        
        
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]     





              U.S. GOVERNMENT PUBLISHING OFFICE 
38-157 PDF            WASHINGTON : 2021         
        
        
        

        COMMITTEE ON HOMELAND SECURITY AND GOVERNMENTAL AFFAIRS

                    RON JOHNSON, Wisconsin, Chairman
ROB PORTMAN, Ohio                    GARY C. PETERS, Michigan
RAND PAUL, Kentucky                  THOMAS R. CARPER, Delaware
JAMES LANKFORD, Oklahoma             MAGGIE HASSAN, New Hampshire
MITT ROMNEY, Utah                    KAMALA D. HARRIS, California
RICK SCOTT, Florida                  KYRSTEN SINEMA, Arizona
MICHAEL B. ENZI, Wyoming             JACKY ROSEN, Nevada
JOSH HAWLEY, Missouri

                Gabrielle D'Adamo Singer, Staff Director
                   Joseph C. Folio III, Chief Counsel
 Michelle D. Woods, Co-Director and Senior Policy Advisor for Homeland 
                                Security
                 Caroline K. Bender, Research Assistant
               David M. Weinberg, Minority Staff Director
               Zachary I. Schram, Minority Chief Counsel
         Alexa E. Noruk, Minority Director of Homeland Security
                    Roy S. Awabdeh, Minority Counsel
                     Laura W. Kilbride, Chief Clerk
                     Thomas J. Spino, Hearing Clerk

                            C O N T E N T S

                                 ------                                
Opening statements:
                                                                   Page
    Senator Johnson..............................................     3
    Senator Peters...............................................     5
    Senator Romney...............................................    18
    Senator Carper...............................................    20
    Senator Scott................................................    23
    Senator Hassan...............................................    24
    Senator Hawley...............................................    27
Prepared statements:
    Senator Johnson..............................................    35
    Senator Peters...............................................    37

                               WITNESSES
                       Monday, September 9, 2019

Alice M. Greenwald, President and CEO of 9/11 Memorial and Museum     1
Hon. Michael Chertoff, Former Secretary (2005-2009) U.S. 
  Department of Homeland Security................................     7
Hon. Janet A. Napolitano, Former Secretary (2009-2013) U.S. 
  Department of Homeland Security................................    10
Hon. Jeh C. Johnson, Former Secretary (2013-2017) U.S. Department 
  of Homeland Security...........................................    12

                     Alphabetical List of Witnesses

Chertoff, Hon. Michael:
    Testimony....................................................     7
    Prepared statement...........................................    43
Greenwald, Alice M.:
    Testimony....................................................     1
    Prepared statement...........................................    39
Johnson, Hon. Jeh C.:
    Testimony....................................................    12
    Prepared statement...........................................    54
Napolitano, Hon. Janet A.:
    Testimony....................................................    10
    Prepared statement...........................................    50

                                APPENDIX

Illegal Immigrant Arrest Chart...................................    61
Minors and Families Chart........................................    62
Responses to post-hearing questions for the Record:
    Mr. Chertoff.................................................    63
    Ms. Napolitano...............................................    64
    Mr. Johnson..................................................    65


                      18 YEARS LATER: THE STATE OF

                      HOMELAND SECURITY AFTER 9/11

                              ----------                              


                       MONDAY, SEPTEMBER 9, 2019

                                     U.S. Senate,  
                           Committee on Homeland Security  
                                  and Governmental Affairs,
                                                      New York, NY.
    The Committee met, pursuant to notice, at 10:02 a.m., at 
the National September 11 Memorial and Museum, New York, New 
York, Hon. Ron Johnson, Chairman of Committee, presiding.
    Present: Senators Johnson, Peters, Romney, Scott, Hawley, 
Carper and Hassan.
    Chairman Johnson. Good morning.

 OPENING STATEMENT OF ALICE M. GREENWALD,\1\ PRESIDENT AND CEO 
                  OF 9/11 MEMORIAL AND MUSEUM

    Ms. Greenwald. Thank you Chairman Johnson, Ranking Member 
Peters, and Committee Members.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Greenwald appears in the Appendix 
on page 39.
---------------------------------------------------------------------------
    My name is Alice Greenwald, and I am the President and 
Chief Executive Officer (CEO) of the 9/11 Memorial Museum.
    On behalf of everyone associated with the Memorial Museum, 
I want to extend a warm welcome and express our sincere 
gratitude for your steadfast commitment to securing the safety 
of our Nation.
    We are deeply honored to have Secretaries Chertoff, 
Napolitano, and Johnson here this morning, and I want to thank 
each of you for your dedicated service to the Nation.
    The decision to hold this public field hearing here within 
a space defined by the remaining foundational structure of the 
World Trade Center (WTC) at what was 18 years ago this week the 
epicenter of Ground Zero, makes today's program especially 
meaningful.
    I know many of you toured the museum last night, some for 
the first time. The events we chronicle here, the lives we 
remember and the aspirations we embrace for world free from the 
scourge of terrorism are inextricably linked to the work of 
this Committee and to the topics that you will discuss today.
    Here at the 9/11 Memorial and Museum we testify to the 
largest loss of life resulting from a foreign attack on 
American soil and the greatest single loss of rescue personnel 
in a single event in American history.
    Our exhibitions and programs recount the collective 
experience of profound shock, unprecedented vulnerability and 
overwhelming grief caused by the attacks.
    Yet visitors take away more than a cautionary tail to 
remain vigilant to continue threats. By sharing the manifold 
expressions of courage, compassion and service in response to 
9/11, this Museum also affirms the best of who we can be as 
human beings.
    From its inception the Nine Eleven Memorial and Museum 
vowed to honor and preserve the memory of all who were killed.
    And 2 days from now this memorial will host as we do every 
year, a solemn ceremony to mark the anniversary of the 9/11 
attacks.
    But in recent years, our understanding of what it means to 
remember has had to evolve with the tragic recognition that, 
for many 9/11 is not past history at all.
    For the survivors, responders, recovery and relief workers, 
volunteers and community members exposed to hazards and toxins 
in the aftermath of the attacks, 9/11 is an all too present 
reality.
    The massive 16 acre recovery effort at this site lasted 9 
months, concluding on May 30, 2002, with the ceremonial removal 
of the last column now standing directly behind you here in 
Foundation Hall.
    During that time, as well as on the day of the attacks, 
hundreds of thousands, it is estimated 400,000, responders, and 
survivors, workers and residents were exposed to hazards and 
toxic dust released into the air at and around the World Trade 
Center following the collapse of the twin tours on 9/11.
    In the 18 years since, thousands have died.
    And tens of thousands more suffer from injuries and 
illnesses sustained at all three attack sites including the 
Pentagon and the crash site near Shanksville, Pennsylvania.
    The scale of the 9/11 health crisis is almost 
inconceivable. Over 97 thousand people living in all 50 States 
and in 434 of 435 congressional districts, are currently 
enrolled in the Centers for Disease Control and Prevention 
(CDC's) World Trade Center health program.
    This tragic situation exemplifies the longitudinal impact 
of terrorism, and its ongoing human toll.
    In just 2 years, we will mark the 20 anniversary of the 9/
11 attacks.
    For the witness generation, it is unbelievable that two 
decades will have passed, our memories of that day are still 
that vivid.
    But there is a new generation growing up in a world defined 
in so many ways by a pivotal event they did not experience 
personally, some are in college, some are starting their 
careers.
    If as someone recently remarked, the 21st Century started 
here.
    We must ensure that the next generation and generations to 
come understand the significance of the events and legacies of 
9/11 so that they have the tools and the perspective to 
negotiate the challenges ahead.
    National security, the topic of today's hearing, is among 
the greatest of those challenges.
    And it is a core programmatic focus for the 9/11 Memorial 
and Museum. As evidenced by this morning's hearing the museum 
has emerged as a vital convening space in which to explore 
issues of global security, counter terrorism, crisis leadership 
and public service.
    We provide especially tailored training programs for 
professionals in law enforcement, intelligence, and the 
military and we regularly offer public programs on security, 
defense, and foreign policy.
    The museum also hosts an annual summit on security, 
bringing together leading voices on security matters, from 
across the public and private sectors.
    Our next summit will take place on November 12th and 13th, 
and will kick off with keynotes from former Director of 
National Intelligence (DNI) director Dan Coats and our 
chairman, Mike Bloomberg.
    This year's summit will also offer an opportunity for 
attendees to preview our next special exhibition documenting 
the more than 10-year hunt for Osama bin Laden.
    If you are interested in attending the summit, or would 
like to visit this exhibition at another time, please let me 
know.
    Standing here, sitting here in Foundation Hall at the heart 
of Ground Zero, we are witness not only to the remnants of what 
was destroyed, but to the promise of a better future.
    This is now the foundation at Ground Zero, a place to 
buildup from, and create a safer world for our children, and 
our grandchildren.
    Thank you for being here today, and for your dedication and 
service to this singularly critical goal.
    Chairman Johnson. Thank you, Alice.

            OPENING STATEMENT OF SENATOR JOHNSON\1\

    Will the Secretaries please be seated.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Johnson appears in the 
Appendix on page 35.
---------------------------------------------------------------------------
    This hearing on Homeland Security and Governmental Affairs 
(HSGAC) will come to order. I would like to start with a brief 
moment of silence to honor the memory of all those who lost 
their lives on that terrible day, and the first responders who 
continue to lose their lives to diseases that they contracted 
in untold acts of heroism.
    [Pause].
    Thank you. I would first like to thank Alice Greenwald and 
everyone involved in the creation of this special place. I 
would like to thank the National 9/11 Memorial Museum for 
hosting this field hearing on hallowed ground, and for 
providing a sobering and moving and educational tour for 
Committee Members and staff last night.
    I would also like to thank everyone for attending what I 
hope to be a thoughtful and informative event. In particular, I 
would like to thank three of the former secretaries of the 
Department of Homeland Security (DHS), Secretaries Chertoff, 
Napolitano and Johnson, for their attendance, testimony and 
especially their service to this Nation. We truly appreciate 
it.
    The title of this hearing ``18 Years Later, The State of 
Homeland Security After 9/11,'' describes our goal: to look 
back and assess what has transpired since that awful day. What 
actions were taken? What has and what has not been effective? 
And maybe most important, what has changed?
    In 2011, the Tenth Anniversary Report Card produced by the 
Bipartisan Policy Center, focused on the extent to which the 9/
11 Commission's 41 recommendations have been implemented. The 
report concluded with the reminder that ``we have done much, 
but there is much more to do.''
    Much work remains because we are living in a world of rapid 
and dramatic change. It is essential to acknowledge that as the 
world evolves, enemies adapt, new threats and problems emerge.
    For example, if the Islamic State of Iraq and Syria (ISIS) 
existed in 2011, it certainly was not on most people's radar. 
We were worried about large scale flight attacks by al-Qaeda, 
not a terror group using video and social media to inspire 
lone-wolf terrorists. I doubt that the creators of the Internet 
and social media platforms ever contemplated how their 
innovations could be used for such evil.
    In his book, ``Slouching Toward Gomorrah,'' Robert Bork 
illustrated how the Internet provided an opportunity for 
previously isolated deviants to connect to others. Social media 
has sped up the process that Daniel Patrick Moynihan accurately 
described as ``defining deviancy down.'' As a result, we have 
experienced the depressing proliferation of homegrown violent 
extremists (HVE), mass shootings and domestic terror attacks.
    Another dramatic shift that has occurred involves the 
composition of illegal immigration. In 2011, only 3,938 
unaccompanied alien children (UAC) from Central America were 
apprehended entering our Southwest Border illegally, and the 
phenomenon of families exploiting our laws was so minor, we 
were not even keeping track of them. And 11 months into this 
fiscal year (FY), more than 69,000 unaccompanied children from 
Central America, and 432,000 family members have been 
apprehended, with most claiming asylum and being allowed to 
stay.
    I use these examples to highlight the evolving complexity 
of the problems we face, and our inability to effectively 
address them. Unfortunately, there are not many solutions as 
easy and effective as hardening the cockpit doors. As Chairman 
of this Committee, I have attempted to guide us through the 
problem-solving process, gather information, properly define 
problems, identify root causes, establish achievable goals, and 
then only after completing that work, begin to design workable 
solutions. Too often in the political realm, solutions are 
directed towards unachievable goals and they simply do not 
reflect reality.
    The Tenth Anniversary Report Card details significant 
implementation of the 9/11 Commission's 41 recommendations. But 
those were solutions in response to 9/11.
    In 2015, this Committee's then-ranking member, Senator Tom 
Coburn, issued a report reviewing the Department of Homeland 
Security. He detailed $544 million spent by DHS from 2003 to 
2014, and criticized the Department for ``not successfully 
executing any of its five main missions.''
    Let me quickly, as an aside, mention what those five 
missions are.
    Prevent terrorism and enhance security. Secure and manage 
our borders. Enforce and administer our immigration laws. 
Safeguard and secure cyberspace. Strengthen the national 
preparedness and resilience.
    And I also have to say in that report, as harsh as it was, 
it was not a reflection on the current secretary, Secretary 
Johnson or past secretaries.
    In fact, he calls on that report, the management skills and 
Unity-of-Effort initiative.
    But it is still pretty harsh assessments, and after 18 
years it is necessary to ask some hard questions based on 
experience. For example, is DHS too big? Does it have too many 
missions? Can we expect one department to be responsible for 
national disasters; preventing domestic terror attacks; cyber 
security; protecting critical infrastructure; enforcing 
immigration laws; securing our borders; investigation 
counterfeit currency and protecting government officials? Not 
only does the list go on, but in addition to its operational 
responsibilities, DHS also reports to 92 congressional 
committees and subcommittees of jurisdiction, plus another 27 
caucus, commissions and groups.
    The complex set of problems that our Nation faces will not 
be solved with heated rhetoric in the midst of political 
squabbling. It will require individuals working together in 
good faith, as Members of this Committee have done so often in 
the past. That is why I am grateful that a bipartisan group of 
senators has the opportunity to be here today to learn from a 
bipartisan group of former secretaries. I hope that through 
this work we can fairly evaluate past successes and failures 
and use these assessments to guide future actions and policies 
designed to secure our homeland.
    Again, I thank the Secretaries and look forward to your 
testimony, and then Senator Peters.

             OPENING STATEMENT OF SENATOR PETERS\1\

    Senator Peters. Thank you, Chairman Johnson for convening 
this important hearing, and thank you to Alice Greenwald and 
the entire National 9/11 Memorial and Museum staff for hosting 
us here today. I am also grateful to our former Homeland 
Security Secretaries for joining us to share your thoughts as 
well as your expertise.
---------------------------------------------------------------------------
    \1\ The prepared statement of Senator Peters appears in the 
Appendix on page 37.
---------------------------------------------------------------------------
    This hallowed space is quiet and peaceful today. We are 
surrounded by the remnants of the Towers that were destroyed, 
and the treasured memories of 2,977 lives taken 18 years ago at 
the World Trade Center and at the Pentagon and in Shanksville, 
Pennsylvania.
    My colleagues and I had the opportunity to tour the museum 
and the Memorial yesterday, and the experience--this 
extraordinary tribute to the lives that were lost in the most 
devastating attack on American soil, the tribute to the 
families who lost their loved ones, and the first responders 
who so bravely ran into danger to save the lives of others.
    Behind us is the last column, the final piece of steel that 
was removed from Ground Zero after the 9-month long recovery 
effort had ended. Today, it stands as a monument honoring the 
441 first responders, police, firefighters and rescue workers 
who gave their lives in the line of duty.
    This week, we remember and honor the lives lost on 
September 11, 2001, we must also reflect on the lessons that we 
have learned in the years since as we work to prevent a tragedy 
like this from ever happening again.
    In the days following September 11, our Nation felt, for 
the first time, that we were vulnerable to the dangers of a 
very volatile world. In those frightful days, no one knew what 
the future would hold--only that we would rise from the rubble 
united and resolve to be stronger than ever.
    It was out of that uncertainty and determination to protect 
this Nation from future attacks, that the Department of 
Homeland Security was founded.
    The new department, which rapidly grew to be one of our 
Nation's largest Federal agencies, was comprised of nearly two 
dozen large and diverse agencies, many of which had operated 
for decades as independent actors. In the face of tragedy these 
organizations, each with their own very unique cultures and 
histories, coalesced around a very single and focused mission 
and under one banner.
    The Department of Homeland Security was created with one 
primary mission in mind, combating the scourge of terrorism and 
ensuring that we could say with confidence ``Never Again.''
    However, in the years that have since passed, as the world 
around us has changed, so too have the challenges facing this 
great Nation, and this vital department.
    Today, DHS confronts a new generation of persistent and 
evolving threats, more complex and diffuse than we could have 
possibly imagined just a few years ago.
    With each passing day, our world becomes more 
interconnected, cementing the important role that cybersecurity 
plays in our everyday lives.
    A rise in violence driven by racism, religious 
discrimination and other hateful ideologies has altered our 
perception of domestic terrorism and the threats that they 
pose.
    And one of the gravest threats to our national security 
does not fly a flag or adhere to an ideology. Yet climate 
change poses an existential threat not just to the United 
States but to our entire planet.
    The Department of Homeland Security is our first line of 
defense against these and many other challenges, and some of 
which have evolved or risen since this Department was created.
    As the threats to our homeland change, so must the efforts 
to protect our national security.
    With nearly two decades of lessons learned, the time has 
come for a clear-eyed assessment of what has worked and what 
needs to be improved.
    As we reflect on what the Department has accomplished to 
date, we must consider whether the size and the complexity of 
DHS can keep pace with the constantly evolving threats of a 
rapidly changing world.
    In order to build a more sustainable department and defend 
ourselves from global threats we must look to the future. It is 
not enough to understand the threats of the moment, we must 
also ensure that DHS is prepared to anticipate and identify 
those threats arising in the future.
    This is a very difficult conversation, but one that we must 
have to keep our country safe and ensure that we never again 
face a catastrophic event like September 11th.
    Chairman Johnson. Thank you, Senator Peters.
    As the Secretaries may be aware, it is our tradition to 
swear in witnesses. So, if you will all stand and raise your 
right hand. Do you swear that the testimony you will give 
before this Committee will be the truth, the whole truth, and 
nothing but the truth, so help you, God.
    Mr. Chertoff. Yes.
    Ms. Napolitano. Yes.
    Mr. Johnson. Yes.
    Chairman Johnson. Please be seated.
    Our first Secretary is former Secretary Michael Chertoff, 
who is the founder and the executive chairman of the Chertoff 
Group and senior counsel to the law firm of Covington & 
Burling.
    Mr. Chertoff was the second Secretary of the Department of 
Homeland Security serving under President George W. Bush. He 
led the Department from 2005 to 2009. Earlier in his career he 
was a Federal judge on the Third Circuit Court of Appeals and 
was head of the U.S. Department of Criminal Justice, U.S. 
Department of Justice Criminal Division. Secretary Chertoff.

  TESTIMONY OF HON. MICHAEL CHERTOFF, FORMER SECRETARY (2005-
          2009), U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Chertoff. Thank you, Mr. Chairman.
    Thank you Senator Peters and Members of the Committee.
    I deeply appreciate and am honored by the opportunity to 
appear before the Committee and particularly in this setting, 
which is so meaningful.
    I also know that in the audience we have a number of senior 
security officials from the State of New York, of the Fire 
Department of New York, and the Port Authority, which of course 
is the organization that houses this facility.
     I also would like to request respectfully that my written 
testimony be made part of the record.\1\
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Chertoff appears in the Appendix 
on page 43.
---------------------------------------------------------------------------
    Chairman Johnson. No objection.
    Mr. Chertoff. I have very vivid personal memories of 
September 11th.
    Very briefly, I was head of the Criminal Division and 
within minutes after the second plane hit the Tower, in the 
World Trade Center I was at the operation center in the Federal 
Bureau of Investigation (FBI), with then FBI Director Bob 
Mueller, trying to figure out first who had done it and perhaps 
more importantly how do we stop it from happening again.
    And I have vivid memories of hearing about the plane that 
went down in Shanksville, and also having heard the order 
transmitted to shoot the plane down if necessary, something I 
never would have imagined that I would live to hear.
    Within a matters of days after September 11, I was here on 
the site with the Attorney General (AG) and the FBI Director, 
touring the rubble, and you could still experience the smell 
and the visual sights of destruction, which were almost 
unimaginable.
    So, for me this is an opportunity again to remember what 
is, for the whole country and maybe for the whole world a 
seminal event of our lifetimes.
    It is obviously very appropriate to use the impending 
anniversary as a way to honor those who died, and those who 
volunteered to run into harm's way to try to protect victims of 
this attack--firefighters, police.
    And then in the weeks and months and years afterwards, 
those who left the comfort of their homes to volunteer and join 
the armed forces, to continue to protect us against the enemy 
that was based overseas.
    But I am also mindful of what was said previously about the 
fact that we are coming up on 20 years, a generation of time 
that has passed since September 11th.
    And I think about the fact that there are now young folks 
in college for whom this is a history lesson, and not a vivid 
memory.
    And so, of course, the question naturally arises, when the 
next generation comes on the scene, what will they be facing 
and what will they remember, and will they, ``God forbid'', 
have another similar event to reflect upon.
    And I think that is very much to mind the value of the 
importance of this hearing.
    What is the next generation going to face and how do we 
adapt ourselves to what that might be?
    So, I have basically three brief observations about this. 
One is, I regard the 9/11 event and some of the events that we 
saw thereafter as what I call Terrorism 1.0. That was Osama bin 
Laden's vision of high impact events with large mass casualties 
and very dramatic visual seeds of destruction and death.
    And I have to say that DHS and the whole U.S. Government 
has been quite successful in making sure that an attack of that 
scale has not been successful since September 11th.
    We came close a couple of times. Some of you will remember 
the August 2006 airline plot which we frustrated, which would 
have blown up 12 airliners leaving Heathrow Airport, coming to 
North America.
    But it is important that our success not lead us to 
complacency, because the enemies of this country still look to 
the possibility of a mass attack, whether it is explosions, 
chemical attacks, or biological attacks.
    And as we saw in the months after 9/11, if you give 
terrorists organizations a safe haven, they will begin to 
experiment with chemical weapons, biological weapons and other 
kinds of weapons of catastrophe.
    And it is important that we deny them those safe havens.
    And I would say, in connection with that as we look at 
ongoing discussions with respect to the future of Afghanistan, 
let's be sure that we do not sacrifice our ability to strangle 
any plots, to shut down the labs and the training centers 
before they get started again.
    I will also say that we have seen a morphing of terrorism, 
what I call 2.0 and 3.0. 2.0 being smaller scale attacks like 
we saw in Mumbai or in the Bataclan nightclub in France, which 
are coordinated and trained, but do not have the scale of a 9/
11.
    And then perhaps even more alarming is what I call 3.0, 
inspired attacks, where people are basically incited over the 
Internet, to go out and pick up car keys, guns, or make bombs 
using the materials in their mother's kitchen in order to kill 
people randomly, just in order to keep a marker that the 
terrorists are going to continue to attack.
    And here I have to say that we have not only Jihad 
terrorists, which are still networked internationally with each 
other, but we are seeing other ideological terrorists also 
arising, what we sometimes call domestic terrorism, whether it 
is white supremacists or other kinds of ideological groups.
    And even those are not purely domestic. They are reaching 
across borders, using the Internet to incite each other, to 
boast about the number of people that they have killed and to 
continue to carry out these attacks.
    And so we need to start to think about strategies to deal 
with this kind of terrorism, which to my mind involves much 
more involvement of local authorities, and local social 
services; but also the creation of what I call off ramps, ways 
you might intervene with people who are beginning to get into 
that mind-set, and divert them before they wind up having to be 
in the criminal justice system or worse, wind up carrying out 
an attack.
    And finally, we need to focus on cyber warfare.
    We see ransom-ware attacks on our cities, that are shutting 
down services. We have seen in other parts of the world, like 
Ukraine, attacks on critical infrastructure that have shut the 
lights off. We need to raise our game with respect to this. And 
it has to be a public private partnership.
    Along these lines we also are beginning to see the 
recurrence of what used to be called active measures, which is 
the use by foreign adversaries like Russia, on social media and 
other tools to attempt to influence and disrupt our democracy 
and our social unity.
    And finally I would like to say just briefly before I 
conclude, that I do think that DHS has largely succeeded in the 
missions that were set out for itself, as witnessed by the fact 
that we have not had another 9/11, but the organization must 
continue to adapt to these new challenges and new threats.
    I think that most of the recommendations of the 9/11 
Commission were adopted, but I do have to say that Congress 
still needs to streamline oversight, which I think is the one 
major suggestion which has not really been implemented.
    So, thank you very much. And I look forward to answering 
questions.
    Chairman Johnson. Thank you, Secretary Chertoff.
    Our next secretary is former Secretary Janet Napolitano, 
who is the President of the University of California, who got 
some great rankings recently in the Wall Street Journal poll. 
Ms. Napolitano served as the Secretary of Homeland Security 
from 2009 to 2013, under President Barack Obama. Prior to 
serving as Secretary, she was the Governor of Arizona from 2003 
to 2009, the Attorney General of Arizona from 1998 to 2003, and 
U.S. Attorney for the District of Arizona 1993 to 1997. 
Secretary Napolitano.

 TESTIMONY OF HON. JANET NAPOLITANO,\1\ FORMER SECRETARY (2009-
          2013), U.S. DEPARTMENT OF HOMELAND SECURITY

    Ms. Napolitano. Thank you Chairman Johnson and Ranking 
Member Peters and the Members of the Committee.
---------------------------------------------------------------------------
    \1\ The prepared statement of Ms. Napolitano appears in the 
Appendix on page 50.
---------------------------------------------------------------------------
    I want to thank you for conducting this important field 
hearing and for inviting me to participate.
    I am grateful for the work that you do on behalf of the 
American people, and I am honored to be with you this morning 
here at the National September 11th Memorial and Museum.
    Eighteen years after the attacks, September 11th remains a 
somber day on which we mourn and reflect on the nearly 3,000 
lives lost in the attack on our Nation. As we honor the memory 
of those whose lives were taken on that fateful morning, so, 
too, we express our gratitude to the first responders, law 
enforcement and volunteers, who pulled people from the wreckage 
of the Pentagon, from the World Trade Center and who themselves 
many later succumbed to illness or died as a result of their 
recovery efforts.
    I also would like to thank the men and women of the 
Department of Homeland Security for the work that they do to 
keep us safe day-in and day-out. They are true patriots and am 
grateful for their service to our Nation.
    And finally I would like to acknowledge former Secretaries 
Chertoff and Johnson, who are here today, and who so ably led 
the Department during their respective tenures.
    From the beginning of my tenure as Secretary at DHS, we 
focused our mission on terrorism, aviation security, 
cybersecurity, and border management and security, as well the 
security of the global supply chain, the trafficking of goods 
and humans and the resilience of the Nation to natural 
disasters.
    To meet these challenges, we relied on intelligence to 
develop and implement effective programs and operations while 
working to make travel, trade, and commence more seamless for 
the public. We created Transportation Security Administration 
(TSA) Pre-Check, and significantly expanded Global Entry, 
Customs Trade Partnership Against Terrorism, and customs 
preclearance. We also transformed border security, immigration 
enforcement, and disaster preparation, response, and recovery.
    But as we all know, and as the former speakers have 
alluded, threats against our homeland are not static, they 
evolve and we in the Department must adapt with them.
    So, today I would like to speak with you about three areas 
that I believe the country must focus on. Cyber security, mass-
casualty shootings, and the effects of global warming or 
climate change. And I will address one issue that I believe is 
not a threat to the homeland, the U.S. border with Mexico.
    With the Cybersecurity and Infrastructure Security Agency 
(CISA), DHS has stepped up to its cyber capabilities, but we 
have much more to do in this area. Our Nation's critical 
infrastructure, its utility grid, election systems and our 
public and private networks all are vulnerable. Our adversaries 
and international criminal organizations have become more 
determined and more brazen in their efforts to attack us, and 
to steal from us. We need a whole of government and a whole of 
public and private sector response to this threat, and it needs 
to happen now. We can out-think, out-renovate and out-research 
those who seek to do us harm, by among other things, investing 
in our Nation's research enterprise, and leveraging such things 
as the tremendous capabilities and intellectual resources at 
the Department of Energy (DOE) National Laboratories.
    The less technical threat of mass casualty shootings is no 
less consequential as those posed in the cyber arena. Many in 
our country have sadly grown all too accustomed to stories of 
yet another mass shooting. DHS's Office of Intelligence and 
Analysis (OIA) was created to evaluate the nexus between threat 
and vulnerability. It needs to be aggressive in doing so with 
respect to gun violence and mass casualty shootings.
    I believe in the 2nd Amendment, but it did not contemplate 
citizens with combat-ready assault rifles. I believe that 
people should be able to use weapons for recreation, hunting 
and protection, but if you cannot hit your target with 10 
shots, you should not be shooting a gun. It is time for 
Congress to ban high capacity magazines and assault weapons, 
and it is time to enact universal background checks.
    It is also time for Congress and the Department of Homeland 
Security to recognize that climate change is a generational 
threat to the homeland that must be addressed in a meaningful 
way. The uptick in extreme weather events on land, and on our 
shores clearly impacts the missions of the Federal Emergency 
Management Agency (FEMA) and the U.S. Coast Guard (USCG). From 
rescue and reconnaissance to disaster preparation response and 
recovery, our changing climate requires DHS to approach those 
missions differently.
    Climate evolution also implicates our border and our 
immigration system, thereby directly affecting U.S. Citizenship 
and Immigration Services (USCIS), U.S. Customs and Border 
Protection (CBP) and U.S. Immigration and Customs Enforcement 
(ICE). Extreme weather is destroying crop yields in Central and 
South America, devastating economies, and drying up jobs and 
gainful employment opportunities. With lost jobs and lost wages 
the aperture toward radicalization widens as does the draw of 
northward migration. There are many factors that lead to 
migration to the United States, but the downstream effects of 
climate change are certainly among them. If we as a Nation fail 
to address climate change in a holistic and global way, as a 
threat to the homeland, we will be ignoring one of the Nation's 
and the world's greatest security risks.
    Finally, I would like to address a topic that I do not 
believe is a threat to the Homeland, the U.S. border with 
Mexico. I have worked on issues related to that border for 
nearly 30 years as a prosecutor, a Governor, and as Secretary 
of DHS. I have walked it, ridden it on horseback, flown it in 
fixed and rotor-wing aircraft, explored its tunnels, and 
visited almost every Land Port of Entry (POE). There have been 
times during my three decades of public service when I did 
argue that the border was a threat, but now it is not such a 
time.
    The border is a zone where millions of dollars of lawful 
commerce, trade, and travel traverse each day. It produces jobs 
for citizens living along it and throughout the United States. 
On its own, it is an economic engine.
    Proper border management requires a blend of physical 
infrastructure, manpower and technology. What we do not need 
and what does not make sense is a wall from one end of the 
border to the other. As Governor of Arizona I once proclaimed, 
``show me a 10-foot wall and I will show you an 11-foot 
ladder.'' That was more than a decade ago, and it is still true 
today.
    The debate about a costly and needless border wall should 
come to an end. It distracts from the overall mission of DHS, 
it is a red herring. I urge this Committee to consider putting 
an end to the discussions of the border wall, and to return 
your worthy attention to more immediate challenges of securing 
our homeland.
    I am grateful for the opportunity to appear before you 
today and like Secretary Chertoff and Secretary Johnson, I look 
forward to your questions.
    Chairman Johnson. Thank you, Secretary Napolitano.
    Our third Secretary is the former Secretary Jeh Johnson, 
who is a partner with the New York City based law firm Paul 
Weiss Rifkind Wharton & Garrison. Mr. Johnson served as the 
Secretary of the Department of Homeland Security from 2013 
through 2017 under President Barack Obama. Prior to serving as 
Secretary he was the General Counsel (GC) for the Department of 
Defense (DOD) from 2009 to 2012, and the Department of the Air 
Force from 1998 to the 2001, and an Assistant United States 
attorney for the Southern District of New York from 1989 to 
1991. Secretary Johnson.

TESTIMONY OF HON. JEH JOHNSON,\1\ FORMER SECRETARY (2013-2017), 
              U.S. DEPARTMENT OF HOMELAND SECURITY

    Mr. Johnson. Chairman Johnson, Ranking Member Peters and 
Members of this Committee, good morning. Welcome to New York 
City, my home town.
---------------------------------------------------------------------------
    \1\ The prepared statement of Mr. Johnson appears in the Appendix 
on page 54.
---------------------------------------------------------------------------
    Accompanied by my predecessors Mike Chertoff and Janet 
Napolitano, I welcome the opportunity to testify at this field 
hearing in lower Manhattan, in conjunction with the 18th 
anniversary of the 9/11 terrorists attacks. Senators Johnson 
and Carper will recall that on the 14th anniversary of 9/11, 
they accompanied me to the annual observance in Shanksville, 
Pennsylvania.
    And like millions of others, 9/11 is painful and 
significant to me. I am a New Yorker. I was in New York City on 
9/11. And I personally witnessed the collapse of the two 
towers. 9/11 also happens to be my birthday. Out of that day 18 
years ago came my personal commitment to national security. In 
the years that followed, as the Chairman noted, I served as 
General Counsel of the Department of Defense, and as your 
Secretary of Homeland Security for 3 years.
    Three years ago on the 15th anniversary of 9/11, I presided 
at the ceremony to welcome the Federal Government back to One 
World Trade Center. My DHS office in New York City sat on the 
50th floor of that building. As a point of personal privilege, 
I would like to acknowledge someone here who was probably one 
of the five best friends that I have in the world, Roger 
Parrino, a retired New York City Police Detective (NYPD). And I 
have known him for 30 years, we worked drug cases together when 
I was a prosecutor and he was a cop. He was one of those who 
ran into harm's way 18 years ago, on 9/11, and for his actions 
was awarded the Medal of Valor by the Mayor of the City of New 
York.
    And any assessment of the today's Homeland Security must 
include an assessment of today's Department of Homeland 
Security.
    I confess that I view today's DHS with despair and dismay. 
The Department appears to be under constant siege, and constant 
crisis, suffering from management upheaval and leadership 
vacancies, and crippled and attacked and constantly sued for 
the abrupt launch of ill-conceived controversial immigration 
policies. More so than ever before, DHS is now villainized and 
politically radioactive. There are public calls for a boycott 
of private businesses that contract with DHS, while certain 
elected officials call for the outright elimination of certain 
components of the DHS, if not DHS in its entirety.
    In the current environment, it is easy to forget that DHS 
is responsible for the vital missions of protecting the 
American people and their homeland from the land, sea, air and 
in cyberspace. The Coast Guard performs vital maritime, safety, 
national security, law enforcement and counterdrug functions. 
The U.S. Secret Service (USSS) protects the President and 
others. TSA provides aviation security to over two million 
people per day. FEMA is the Nation's disaster response agency. 
The National Cybersecurity and Communications Integration 
Center's (NCCIC) is the U.S. government's primary information 
exchange hub for the nation's cybersecurity. These are matters 
in which politics should play little if any role and around 
which there should be bipartisan consensus and support. Yet the 
Department and its leadership appear to be overwhelmed by the 
politically contentious and emotional immigration mission and 
the crisis that have existed on the Southern Border--to the 
exclusion, I fear, of all of these other important Homeland 
Security missions.
    For the nation's cabinet-level department charged with 
protecting the American Homeland, and its people, it should not 
have to be this way. I know that every Member of this Committee 
agrees with that. Mr. Chairman, I am very appreciative that you 
and the Members of this Committee have held this hearing, here 
in this hallowed place, in this bipartisan spirit.
    And I look forward to your questions.
    Chairman Johnson. Thank you, Secretary Johnson.
    Normally, I defer my questioning but in my opening 
statement I asked a basic question, and we had what I consider 
a pretty lively discussion last night in regard to it. So, I 
will just throw it open to all three secretaries, because you 
kind of alluded to it as well.
    When you have a crisis, whether it is three hurricanes, and 
wild fires, when you have as I described the flow of children, 
but primarily people, family members reaching hundreds of 
thousands in a year, how can an individual--and you all served 
as secretaries--how can you handle it when you are overwhelmed 
in one area, and you have this Department that has so many 
other different missions?
    So, I will open the questions, and start with the Secretary 
Chertoff and just go right down the line. Is DHS too big, does 
it have too many missions?Should we reevaluate how it is 
structured?
    Mr. Chertoff. Sir, let me say this--Mr. Chairman--I 
appreciate the question. I will begin by saying first of all, 
fortunately the Secretary does not have to do everything 
himself or herself. And I have to stay that one of the 
strengths of the Department has been the professionalism of the 
career people who work in all of the agencies, and that was 
something which I was able to rely upon during a very 
tumultuous 4-year period.
    I would say that you could tweak elements in the 
Department, but honestly I think, particularly as it matured by 
my two successors here, and subsequently I think that the 
ability to have unity-of-effort where you bring the resources 
and the skills related to prevention of terrorism, to reducing 
vulnerabilities, and to response and resilience, I think that 
that is much more of a positive than a negative.
    In other words, there were debates at various points in 
time about whether you should treat cyber as a separate agency. 
I will say that from my experience, not only from government 
but from the private sector, often the attacks that we view as 
cyber attacks come along with the physical attack, as well.
    And the ability to protect your infrastructure requires 
that you have a holistic view, what we call convergence, rather 
than a fragmented view.
    So I would argue that the key here is to continue to build 
and mature the unity-of-effort, and to again maintain a 
tradition, which I think we have had through a number of 
administrations, of having the nonpolitical professional 
operators carrying out the important mission of protecting the 
country and building resilience.
    Chairman Johnson. Secretary Napolitano.
    Ms. Napolitano. Yes. I agree with Secretary Chertoff.
    I would note that when the Department of Defense was 
created in the wake of World War II, most analysts say that it 
took over 40 years for the Department of Defense to really 
become integrated. And the Department of Homeland Security is 
much younger than that, and it has many more missions. So, but 
it is maturing, it is coming together.
    And the efforts spent tweaking, moving one box here and one 
box there, I think would not be worth the effort. I would 
suggest respectfully that one area that could really help the 
Department would be to streamline congressional oversight. And 
I know that is delicate, and it requires committees to give up 
some jurisdiction, but the Committee on Homeland Security has a 
tradition of being--operating in a fairly bipartisan way, and 
being a very good overseer of the Department and it needs to 
push some of those other committees out of the way.
    Chairman Johnson. Thank you.
    As you know from our discussion last night you are 
preaching to the choir here. This may actually pass a bill to 
begin that process, establish a commission, I am completely 
sympathetic with that. And again your voicing it will help to 
get that accomplished. Secretary Johnson.
    Mr. Johnson. So, I have the most recent experience here. My 
answer is in one sentence, it is too large and one sentence and 
it is not large enough. Prior to DHS, I came from being the 
General Counsel for the entire Department of Defense, which is 
larger than DHS by multiples. The Department of the Air Force 
(DAF) or the Department of Navy (DoN) in and of themselves are 
larger than DHS. And it is the third largest cabinet level 
department. But it is too big in the following sense: Its 
missions are very diffuse, very decentralized: the cultures 
across DHS are vastly different, the culture of FEMA versus the 
Secret Service, versus the Coast Guard.
    And the command and control structure of DHS lacks the 
maturity of the DOD. So one Christmas I set out to send an e-
mail to every person in DHS who was a direct report to me. And 
I just kept going and going, thinking of people who report 
directly to me, so by noon I had to stop. There were so many 
people that I felt like I had to write to. And by contrast, if 
you look at the Department of Defense, there is for an example 
somebody in a senate confirmed Under Secretary who has the 
oversight function over all of DOD's intelligence missions. And 
so, except for the component leaders and there are 7 or 8 of 
them, there are no middle level management really between those 
people and the Secretary.
    I am very pleased that Congress just before or after I left 
office codified the joint task force structure that I created 
so that we would have more of a DOD type model, when it comes 
to border security.
    The other thing that I would say is, in one respect, I 
think that we actually need to go further. I would like to see 
our government, and this is probably politically unobtainable, 
consolidate more of Federal law enforcement issues, under one 
cabinet level person.
    If I could wave a wand, I would take every Federal law 
enforcement agency, put it under one cabinet level official, 
not necessarily the Attorney General, who is the chief 
prosecutor, and deconflict all of their missions, much like 
they do in ministries of the interior in other nations, but--it 
is probably politically impossible to do that.
    So, in that sense I do not think that we have gone far 
enough consolidating our law enforcement mission.
    I know that there is discussion of possibly moving the 
Secret Service, the Treasury, back to the Treasury Department 
(USDT). I would not do that. Secret Service essentially is a 
law enforcement agency, and when you are talking about large 
security operations like the General Assembly, it makes a lot 
of sense to have the Secret Service as part of one cabinet 
level department, with Homeland Security Investigations (HSI), 
with FEMA, with the Coast Guard, and one pair of eyes and ears 
looking at all of the threats and all of the different ways 
someone can enter the country.
    Chairman Johnson. I really appreciate those responses. I 
think that it is important testimony. It can and should carry a 
lot of weight. So, thank you. Senator Peters.
    Senator Peters. Thank you, Mr. Chairman.
    While the Department was established in 2002 in response to 
an attack planned and directed by a foreign terrorist 
organization, since then we know that the country and the 
threat landscape as has evolved dramatically.
    In recent years, domestic terrorists have killed more 
people in our country than international terrorists. And most 
of the FBI's domestic terrorism investigations involve white 
supremacist violence.
    Secretary Napolitano, during your tenure you were there 
probably at a turning point when we saw the threat landscape 
change, and the current wave of white supremacist violence. I 
would be curious as to your assessment as to how you address 
that, what more you think that we need to do, and whether 
impediments?
    And certainly would like to hear from the other Secretaries 
as well as to how we deal with this significant threat we are 
facing now.
    Ms. Napolitano. So, one of the manifestations of this 
threat, is the radicalization of lone actors through the 
Internet and social media. We do not really have a good 
understanding of what causes somebody to read something online, 
et cetera, all the way up to going out and purchasing a combat 
ready weapon and taking it out on their fellow citizens.
    So, to me, we need to do much more in the sense of 
understanding the motivation behind these violent actors. We 
need to involve more local law enforcement and social service 
providers, in trying to find, as Secretary Chertoff said, off-
ramps for these individuals. And we clearly need to prioritize 
these kind of domestic terrorist events in the sense of the 
threats facing the country.
    Senator Peters. Secretary Chertoff.
    Mr. Chertoff. I agree with that.
    I think that first of all we need to recognize that in many 
ways, what I call terrorism 3.0, which are the inspired Jihad 
terrorists, that we have seen in various things, for example, 
in California, are very similar to the white supremacist 
terrorist who are inspired to carrying out shootings in 
synagogues.
    There seems to be a capability of networks of people who 
are very ideological to find like-minded people who are 
beginning to move in that direction, and to incite them to 
carry out acts of violence.
    And as Secretary Napolitano said, we need to understand 
that we also need to recognize that this is a global challenge, 
it is not just a domestic challenge. When you look at some of 
the shootings that we have seen recently, we have seen 
references to Norwegian white supremacists or the Christ Church 
shooter where they essentially look for an endorsement along 
that line from the network around the world. So, this to me is 
not just an American issue, but it is an issue that we have to 
deal with involving our partners oversees as well.
    Senator Peters. Secretary Johnson.
    Mr. Johnson. My first, second, and third answers are gun 
safety, gun safety, and gun safety. Beyond that: Continued good 
law enforcement, and initiatives to counter violent extremism 
at the Federal and local level, grants from the national level 
to the State and local law enforcement, which includes active 
shooter training exercises, support for active shooter training 
exercises, which I think are very important, and public 
vigilance, public awareness, various ``if you see something say 
something'' campaigns. DHS has partnered with a number of 
cities, a number of professional sports teams, public 
awareness, public vigilance, and it does make a difference.
    Chairman Johnson. Secretary Johnson, you mentioned ``gun 
safety, gun safety, gun safety.'' There are a number of actions 
that we could take, but one that may be before the Congress 
this week is to expand background checks. Would you support 
that, do you think it is necessary? And I would like to hear 
from the other two, as well.
    Mr. Johnson. I support anything consistent with the Second 
Amendment, that has bipartisan support, that makes it more 
difficult for a deranged-violent-person to get his hands on a 
gun, specifically an assault weapon.
    Senator Peters. Secretary Napolitano.
    Ms. Napolitano. I think that the universal background 
checks is a good step toward greater security for the country, 
but it is a first step.
    Mr. Chertoff. I agree. We ought to have universal 
background checks. And I think that, I guess in a similar vein, 
so-called ``red flag laws'' when someone winds up behaving in a 
way that suggests that they may be a menace, that we actually 
remove their access to any firearms that they have. There are 
some other things that we could do, as well, as Secretary 
Napolitano said, I am not sure why they need to be selling 
magazines with 100 rounds. If you can't hit the bird with the 
first 10, you probably should not be hunting.
    Senator Peters. Secretary Johnson and I just over a week 
ago sent a letter to DHS with our Homeland Security Committee 
colleagues regarding allegations that this administration has 
quietly dismantled or cut back on multiple programs that were 
created after the September 11th attacks--to detect and prevent 
terrorism, specifically programs operated by the Department's 
countering weapons of mass destruction (CWMD) office.
    My question is: I would like to have each of you give a 
brief opinion on your assessment of the Nation's current 
readiness to prevent a chemical, biological, radiological, or 
nuclear attack. We will start you with Secretary Johnson.
    Mr. Johnson. I have been privy to intelligence or non-
public information obviously for the last two and a half years 
on this. And my sense is that it is a threat that we have and 
we should continue to monitor. Among a range of threats. But it 
is obviously not the only threat. I dealt on a daily basis with 
the threats of some of the things that Mike referred to in 
terms, of a smaller scale, terrorist inspired attacks. This 
type of threat that you described Senator is something that we 
need to continue to be vigilant about.
    Ms. Napolitano. Senator, I agree. We need to maintain 
vigilance. We need to understand that active intelligence 
sharing, real time intelligence sharing with our allies around 
the world increases our security in this area, to the extent 
that we are dealing with weapons of mass destruction that are 
manufactured abroad but are attempted to be smuggled into the 
United States. So, the intelligence sharing internationally and 
globally should not be overlooked as an effective tactic or 
technique to help secure the country.
    Senator Peters. Thank you.
    Mr. Chertoff. I agree with what both Secretaries have said. 
As I said in my opening statement, when I was secretary we did 
worry quite a bit about chemical, biological, and radiological 
attacks. And one of the reasons that we did is because--when we 
entered we found labs where al-Qaeda was experimenting trying 
to develop these kinds of weapons.
    The good news is that by reducing the footprint of ISIS, we 
have reduced the territory in which they could carry out that 
kind of work. But, I that that complacency is a real risk here. 
Again, as we talked about the future arrangement in 
Afghanistan, I would not want that to become a safe haven that 
would seek experimentation with these kinds of weapons. I also 
would like to mention Hezbollah, which to my mind still remains 
the most proficient terrorist organization in the world, which 
has access to a regime that certainly has moved in the 
direction of weapons of mass destruction (WMD). And again we 
need to be very careful in sharing intelligence with our allies 
to make sure that Hezbollah does not become an attack vector 
with some of these weapons.
    Chairman Johnson. Senator Romney.

              OPENING STATEMENT OF SENATOR ROMNEY

    Senator Romney. Thank you, Mr. Chairman and thank you to 
those who have helped organize this event in a place where we 
can remember, and mourn and honor those who stepped heroically 
to save others.
    And we can mourn the many, many--not just those who were 
killed on 9/11, but those of the years after that have been so 
devastated by the effects of their heroism. I appreciate the 
testimony of each of the Secretaries and your willingness to be 
here with us today. You acknowledged in our discussions last 
night that in some respects we play the role of a board or a 
policy group..
    And as a Committee we have the opportunity to help guide 
the leadership at the Department of Homeland Security. The area 
of cyber and cyber threats has been mentioned by each one of 
you as being a major area of concern, and I would like just to 
dwell for a moment on that.
    Secretary Napolitano, you indicated that perhaps more 
funding to Department of Energy laboratories to help develop 
new technologies there would be helpful. You also referenced 
public private partnerships. And there is no question that the 
private sector is racing to try to find technologies that they 
can sell, and make money on to protect various entities from 
cyber attack.
    Secretary Johnson, you indicated in your written testimony 
that deterring actors from attacking us, cyber actors is also 
something we should pursue. And perhaps we will begin with you 
then Secretary Johnson, and have each of you respond to what we 
might do to up our capabilities in deterring cyber attacks.
    And specifically, I am thinking with regard to your 
testimony. How can we deter those entities that attack us--
China, Russia, North Korea, Iran--they continue to launch 
hundreds, thousands of attacks on technical databases, 
government databases, corporations and so forth. Is there some 
way we can do a better job of deterring that? And then for all 
of you, how do we up our game in cyber beyond where we are 
today?
    Mr. Johnson. I think it is a basic equation. In my 
experience, all nation-states, all organized nation-states--
whether they are democracies or monarchies or communist 
regimes--are deterred if their behavior is cost prohibitive; if 
the nation-state recognizes that it is just not worth the cost 
in terms of the reaction of the target.
    And we all know that within, between and among governments 
there is a certain amount of surveillance activity that goes 
on. But, we are, as I am sure you recognize, at a new level of 
the theft of intellectual property, weaponizing things for 
political purposes that are stolen.
    And I believe that you cannot create a complete line of 
defense against these kinds of attacks, and therefore we have 
to put it to the bad actor and simply make the behavior cost 
prohibitive. I think that a lot of good things have been done 
in this administration in terms of sanctions directed at the 
Russian government, and by the Congress.
    But if you believe the intelligence assessments, a lot more 
is necessary, both directed against Russia and the other 
countries that you mentioned. Now in terms of what more we can 
do on the defensive side, on my watch we really enhanced the 
capability of the end kick, which is within DHS, it is the 
information hub for cyber security.
    But I was disappointed when I was leaving office that not 
more private sector actors had partnered with DHS for 
information sharing purposes. So, I recommend to Congress that 
you check in on that occasionally and see what you can do, more 
encourage that type of information sharing.
    Senator Romney. Thank you.
    Ms. Napolitano. I think that the National Crime Information 
Center (NCIC) is a valuable resource at the Department for 
bringing together the public and private aspects of 
cybersecurity. Cyber is an enormously complicated topic, it is 
international in scope, the technology changes faster than we 
can change laws or policy. It requires agility and nimbleness 
that is really not the hallmark of government.
    That is one of the reasons why it is so important to bring 
the private sector in to how we deal with cybersecurity as a 
country. We need a whole of government, a whole of nation 
approach to this area. We need to recognize that it is among 
the top three risks that we face as a Nation.
    When you read the 9/11 Commission report, one of the key 
critiques it makes is that there was reverse engineering, how 
the 9/11 attack occurred. And the report points out all these 
red flags that had arisen. And they said that a key critique is 
that our government leaders suffered from a failure of 
imagination. In the cyber arena, we have all these red flags 
now. We should not entertain such a failure of imagination. And 
perhaps it is time for the country to have a 9/11 Commission 
for cyber, before we have, for example, massive ransom-ware 
attacks simultaneously conducted around the country, or, where 
we suffer once again a direct attack on our democracy as we saw 
in the 2016 election.
    Mr. Chertoff. So, let me just add this. I mean the 
challenge here is that much the infrastructure is in private 
hands. And even when it is in government hands, it is often 
distributed in local government. Sometimes even the basics, 
they do not get done. And that is a challenge because you are 
really trying to ``herd the cats'' in particular direction.
    I would say that there are three things though that I might 
pay some additional attention to. One is I do think that the 
Department has made a good step forward in standing up Cyber 
and Infrastructure Agency from what used to be the National 
Protection and Programs Directorate (NPPD) and becoming more 
operationally involved in working with the private sector on 
upping their game. One of the things that would help would be 
to give private sector actors more access to classified 
information.
    Right now, it is very hard to pass the suitability test, 
which is a requirement that you have a need-to-know classified 
information. It is not to do with whether you are a reliable 
person, it is just whether you have a need-to-know.
    If you are a contractor, that is an easy thing to satisfy. 
But if you are running critical infrastructure it gets 
difficult. And I think that changing the mind-set on that and 
opening up the aperture for information would be very helpful.
    Second, I do agree that we need sometimes particularly with 
nation-states, to be able to impose a cost, but we have to be 
candid. The structure in terms of how we escalate is still very 
undefined. And what we don't want to do is accidentally trigger 
a war because we overreact to something.
    So I think that there needs to be some serious thought and 
perhaps some hearings on the question of what is the 
appropriate scale of escalation in response to certain attacks. 
And finally, I think that we need to look at our, what I would 
call industrial policy as it relates to very sensitive 
technology.
    And Mike McConnell--the former DNI--and I did a piece on 
this a few weeks ago. We do not have a policy to encourage U.S. 
or allied businesses to invest in critical technologies that we 
need to control in order to make sure that the Chinese do not 
own us and eat our lunch.
    And you are seeing this come out with 5G right now, where 
Huawei, with Chinese government subsidies, is pushing out to 
have the equipment that forms the backbone of 5G around the 
world. And we go to our allies and we say do not do this.
    And I have done this myself. And a lot of times what comes 
back is: Well, the problem is that you cannot beat something 
with nothing. What do you have that is better and cheaper?
    And part of the problem is that we have not facilitated a 
market in that kind of technology. We do it in a defense 
business with the defense industrial base, and I would argue 
that we need to now have a policy like that with what I would 
call the tech national security base, and that I think would be 
well worth looking at.
    Chairman Johnson. Senator Carper.

              OPENING STATEMENT OF SENATOR CARPER

    Senator Carper. Mr. Chairman and Senator Peters, thank you 
so much to you and your staff for really coming up with this 
idea and for us to have been here last night and having an 
incredibly moving and inspiring tour.
    I just want to thank everybody who works here as part of 
this team, and the volunteers who probably serve here to. It is 
important that we never forget what happened here all those 
years ago; and that we not just look back, but we use our 
memories of those, that tragic day, but that we also look 
forward and look forward in ways that we have been talking here 
today.
    We fortunately have three of our Homeland Security chairs, 
past chairs that are here. I have had the privilege of, as a 
Member of this Committee to work with all of you, the 
Secretaries Chertoff, Johnson and Napolitano who I consider 
friends, and just wonderful public servants in many roles.
    Tom Ridge is not here, the colleagues, the freshman 
Congressman, together in 1982, elected and served had a chance 
to work in this venue as well. We have had also, Secretary John 
Kelly, John Kelly retired as a 4 star Marine general who served 
briefly, too briefly, I think, in succeeded by Kirstjen Nielsen 
and now wih Kevin McAleenan.
    They are all good people, I think exceptional people. And 
your leadership has been a blessing not just for the 
Department, but for our country.
    I want to ask just a quick question about leadership and 
leadership churn. When Jeh Johnson was the Secretary of the 
Department and became the Secretary of the Department, Tom 
Coburn and I met with him. They put the leadership structure of 
the Department of Homeland Security and from, the Deputy 
Secretaries, Assistant Secretaries positions and on down the 
line, and there were enormous holes that looked a little like I 
call it swiss cheese.
    And that we worked hard to do something about that. I would 
just ask Secretary Johnson would you reflect on that again in 
the context of what is going on today within the Department of 
Homeland Security, the leadership.
    Mr. Johnson. So, that is kind of an unpleasant memory. 
There were a lot of vacancies when I stepped into the 
Department in December 2013, and you and I and Tom Coburn spent 
a lot of time talking about that and impressed upon me during 
my confirmation that we really needed to fill the vacancies.
    So that was probably my top priority, as soon as I took 
office. There were a number of Senate confirmed vacancies, at 
the time, and I think that we benefited from filling those 
vacancies in rapid fire by I think 9 months, just about every 
job had been filled with a Senate confirmed person. And there 
was virtue in having a Senate confirmed Presidential appointee 
in a lot of these component leadership positions.
    One, it is more job security. And when you go through that 
process, you recognize you are accountable to the President, 
but also to a degree you are accountable to the Congress. And 
when you are in a Senate confirmed position--our actings are 
all terrific people, as you know--but when you in a Senate 
confirmed position and you have been confirmed by the Senate, 
you are in a position to provide the President with honest and 
candid advice, sometimes he does not want to hear. And, I 
certainly got the benefit of that from our DHS leaders, once 
they were in the job, and we had some terrific people as you 
know----
    Craig Fugate is one of the first that comes to mind, who 
worked for Janet also. And Craig Fugate needed almost no 
oversight from me. He was a national asset. He was first rate, 
and really did a lot to restore FEMA to the position that it 
now holds and occupies.
    So, I believe then that, and I believe now, that filling 
the vacancies in this very important agency has to be the 
number one priority of the President and the Congress.
    Senator Carper. Thank you so much. If you consider the 
threats to our homeland, you talked a little bit about 
terrorism, a huge threat, and we talked about cyber also, a 
huge threat.
    We talked about illegal immigration. And I agree with 
Secretary Napolitano, the movement of folks coming across the 
border from Honduras, Guatemala, and El Salvador, that is the 
root cause.
    The Chairman of the Committee talks about it. We address 
too often what are the symptoms and the problems and we need to 
address the root cause folks to come here. But whether the 
issue is cyber, illegal immigration, terrorism, or climate 
change, we cannot do these by ourself as a Nation, it has to be 
a team.
    And I always like to say that there is no I in the word 
team.
    Would you talk about the importance of relationships and 
cooperation with our friends and allies, Secretary Chertoff, 
Janet, and Jeh please.
    Mr. Chertoff. When I was in office, we had great 
relationships with our allies overseas, even when there was a 
little bit of political tension and there sometimes was around 
the war in Iraq, when the Bush administration was not so 
popular with the person on the street in Europe.
    On an operational level, I had very close relations with my 
counterparts, we worked together. We exchanged information.
    I mentioned the August 2006 airline plot.
    Working with my counterpart John Reid, and we had a very 
small number of people in the United States who read into this, 
we were able to coordinate and stop what would have been a 
devastating plot and do it in a way that was minimally 
disruptive.
    Likewise, even now, I travel around a lot and I meet senior 
officials from foreign governments and they are hungry for 
American leadership and for American values. So, I think that 
it is very important, particularly that the Congress emphasize 
our commitments to our allies and friends around the world.
    Senator Carper. Secretary Napolitano.
    Ms. Napolitano. Yes, Senator, I think the name Homeland 
Security in a way is a misnomer because if you wait until a 
threat actually reaches our homeland, you may be too late. And 
it requires the Department to have good alliances around the 
world, for real time intelligence and operations.
    Port security, passenger screening, cargo screening, all of 
that, that happens abroad. And so, the Department really needs 
to be able to look outward as well as inward to improve our 
overall level of safety and security.
    And it would be benefited if the country was seen as 
actively engaged and welcoming of these alliances, as well.
    Senator Carper. Secretary Johnson, briefly, please.
    Mr. Johnson. I agree.
    Senator Carper. Thank you very much.
    Chairman Johnson. I appreciate that. Senator Scott.

               OPENING STATEMENT OF SENATOR SCOTT

    Senator Scott. Chairman Johnson, Senator Peters, thank you 
and your team for putting this together. I want to thank Alice 
and everyone here at the 9/11 Museum and Memorial for hosting 
us here.
    I want to thank each of the prior Secretaries for being 
here. Today, we reflect on a solemn time in our nation's 
history. I was in the City on September 11 and saw the terror 
and devastation inflicted on our Nation. And unfortunately, it 
still impacts a lot of people, the survivors, the first 
responders, and many of the families of the victims.
    I want to thank each of you for your hard work. You should 
be proud of the Department of Homeland Security for everything 
that they do to keep us safe. I was just in the Bahamas with 
the Coast Guard, and they are right now saving lives from 
Hurricane Dorian's devastating aftermath. And I was just at the 
border, of Mexico and California, and you should be very proud 
of our border patrol for what they are doing to protect our 
country from drugs, weapons and terrorism.
    One question that I have for each of you, is--if you go 
back, a lot of the discussion after 9/11 was about how the 
Federal agencies did not coordinate their information very 
well. And I just finished 8 years as Governor, and I watched 
the same thing continue to happen.
    We had the--Pulse terrorist attack, we had the Parkland 
shooting, we had five people killed at the airport in Ft. 
Lauderdale, and we had three people killed at a yoga studio, 
right before I finished my time as Governor. And in every case, 
the Federal Government had prior knowledge, they got tips and 
they failed to follow up.
    And to this day, no one has ever been able to explain to me 
why, and if anybody has been held accountable. So, are we in a 
better position than we were after 9/11, or do we still have 
the same issues that Federal agencies specifically in the case 
in those cases, the FBI are still not coordinating the 
information with other Federal agencies and local governments? 
f each of you could can give me your ideas.
    Mr. Johnson. I will start. From my perspective, it is much 
better than it used to be. I think that our intelligence 
community (IC), our law enforcement community does a much 
better job of connecting the dots than it used to, though I am 
sure that there is more we can do to get better at this.
    In my experience I have been impressed with the level of 
information sharing. I think a lot depends upon the 
personalities at the top of each agency. If the personalities 
at the top have a good collegial relationship, that trickles 
else down to the people who are sharing the information.
    Particularly in the intelligence community, I will say that 
originally I was not a fan of the creation of DNI, I thought it 
was an extra and unnecessary layer of bureaucracy in our 
intelligence community. But, I saw how Jim Clapper really made 
it work, and when I would get an intelligence product every 
morning, it would come from multiple intelligence agencies, it 
would be coordinated opinions, there my be dissents.
    And I thought that that process worked well, although there 
were a lot of different agencies in the alphabet soup that were 
giving us these products. And I adopted the practice that if 
there was a dissent in an intelligence report, I would bring 
the analyst up to see me, the one who wrote it, the one who 
dissented, and we would talk it over; and very often we would 
realize that there was not a whole lot of difference. But my 
overall impression is that we are doing a much better job than 
we certainly did on 9/11, but it depends a lot on the 
personalities at the top.
    Ms. Napolitano. Yes, Senator, I do think that intelligence 
sharing is better, it is always a goal, but it is never 
perfect. I agree with Secretary Johnson that it depends in part 
on leadership from the top. From a Homeland Security's 
perspective, I think that one of the focuses should be 
effective intelligence sharing into the State and local law 
enforcement environment. And there that surely, that is a work 
in progress.
    Mr. Chertoff. I would agree with that. I think that one of 
the challenges that we are facing is, as we are dealing with 
these inspired terrorists, who are operating at the local 
level, it is often being to be the local authorities that get 
the first word. And just as we have a National Counterterrorism 
Center (NCTC) that is first coordinated by the Federal 
agencies, I think that the fusion centers, with DHS--have a 
broader mission again to look at the issue of domestic 
terrorists and not only the Jihad terrorists.
    Senator Scott. What would you each like the private sector 
to do that it is not doing today, to deal with Homeland 
Security?
    Mr. Chertoff. Let me begin: I would like to see more 
investment and more coordination on cybersecurity--most of the 
assets, that can be attacked are in private hands. Some 
companies have done a very good job of stepping up, but a lot 
of them just hope that someone will take care of the problem 
for them.
    Ms. Napolitano. I agree.
    Mr. Johnson. I agree.
    Senator Scott. Thank you.
    Chairman Johnson. Thank you. Senator Hassan.

              OPENING STATEMENT OF SENATOR HASSAN

    Senator Hassan. Thank you, Mr. Chairman. I want to thank 
you and Ranking Member Peters for your continued attention to 
the issue of Homeland Security, and terrorism and for convening 
this hearing today. I would also like to thank all of today's 
witnesses for their life-long dedication an attention to public 
safety, and for your efforts to protect our citizens and keep 
the United States homeland safe, secure and free.
    Those statements also going to everybody who is here from 
local and State law enforcement. Homeland Security is a team 
effort, and a team mission and I am very grateful for all of 
your efforts. And a special thank you to the 9/11 National 
Memorial and Museum, Ms. Greenwald, to your staff, for hosting 
us on this hallowed ground. It is such a moving tribute to all 
of those who perished nearly 18 years ago today.
    I like many people on the panel, have a lot of memories 
about 9/11, but I think the most significant one for me was the 
feeling that I had when I picked up my then 8 year old daughter 
from school. And I realizing how much her world had changed. As 
I sit here I am once again overwhelmed by our country's 
profound loss that day and the sacrifices made by the first 
responders, military, and civilians and by their loved ones.
    In some ways 9/11 changed our country forever, but our 
response reinforced who we are: We are strong, we are kind, we 
are resilient and in times as places such as this one, we are 
reverent. And we will fight for and protect our freedom. I 
wanted to turn to all three of our Secretaries, because I have 
been dealing at home in New Hampshire with members of different 
houses of worship, who are now increasingly concerned for their 
safety. No one of any faith should have to fear for their life 
when they visit their house of worship for reflection and 
prayer.
    And sadly, as we have talked about over the past few years, 
Americans have witnessed an increase in the number of threats 
to and violent attacks on houses of worship both at home and 
abroad. These threats are not confined to major metropolitan 
areas.
    Over the past months, I have visited with members of houses 
of worship in New Hampshire and heard about the disturbing 
threats that they and their communities have received. One 
rabbi noted that they now only open the doors to the temple 
shortly before services begin, and lock the doors shortly after 
the start of services. In addition to being concerned about 
that limitation, on the openness that always should mark a 
house of worship, this Rabbi said that as she leads her 
congregation, during the those minutes when the doors are open, 
she wonders is this the night we die.
    A few of these houses of worship received a small amount of 
funding from the Department of Homeland Security's nonprofit 
security grant program in order to help secure them against 
these threats. These funds help, but not all who applied for 
the grants were able to get them and there is much more to be 
done to keep houses of worship in New Hampshire and across the 
country safe, secure and free.
    So, Secretary Chertoff, the nonprofit security grant 
program was created during your time as the DHS Secretary. 
Secretaries Napolitano and Johnson, the program continued to 
expand under your watch, but so have the threats. Can each of 
you share with me your thoughts about how the Congress, the 
Department and the entire Federal Government can work to keep 
soft targets like houses of worship safe from threats?
    And Secretary Chertoff, why do we not start with you.
    Mr. Chertoff. Well, this has always been a very challenging 
issue and obviously houses of worship are very sensitive. We 
have seen it in schools, and we have seen it in commercial 
establishments.
    And it is impossible to lock down everything and have a 
free society. I do think that the grants help and I do think 
that frankly I have observed during certain holidays and 
various houses of worship the police are sometimes hired to do 
some overtime and do some protecting.
    Some of it is training, and advising people about what to 
do if there is an active shooter, for example. And then the 
third piece of this has to be again better intelligence 
sharing.
    But I would be kidding you if I were to say that there is 
an absolute way to stop this. This is a question of risk 
mitigation. I do not think that you can get risk elimination. 
But we ought to do the best we can and not let the perfect--be 
the enemy of the good.
    Senator Hassan. Thank you.
    Ms. Napolitano. There is real insight into what Secretary 
Chertoff said, we cannot lock down an open society. But what we 
can do is to help mitigate risk. The grant program helps, 
active shooter training helps, additional local law enforcement 
resources during particular holiday periods may help. And it 
really requires using a menu of approaches. There is not one 
single approach.
    Senator Hassan. Secretary Johnson.
    Mr. Johnson. The grant program that you mentioned, what I 
was struck by when I would look the at grants over year is, the 
program was well-known in certain communities but not others.
    Senator Hassan. Right.
    Mr. Johnson. And certain communities had figured out, year 
after year, how to apply and how to get the grants. But it was 
not well-known enough across the full spectrum of organizations 
that it was intended to help.
    And so, I hope that we have moved in a direction where 
there is larger awareness over the last couple years, and that 
is something I suspect Congress can help with in your 
respective States and districts.
    And, they are all competing obviously for the same fixed 
pot of money. So perhaps Congress should consider raising the 
level of funding for these types of things--because I agree 
with your assessment of the threat.
    Senator Hassan. Thank you. The other thing that I wanted to 
touch on is something that others have mentioned too, on the 
issue of cyber threats. But I wanted to focus a little bit on 
what is happening locally. Recent ransom-ware attacks designed 
to cripple government operations have targeted nearly every 
level of government including a county, Strafford County in New 
Hampshire, and we have seen attacks on cities across the 
country.
    So, is there more we can do for the Federal Government to 
assist State and local governments with deterring, preventing, 
and recovering from cyber attacks?
    Mr. Chertoff. Well, I will begin by saying: I think one 
thing that could be done would be to have localities do some 
basic things to secure their infrastructure, including things 
like, for example, having backups for data. It will not exactly 
eliminate the problem, but it will reduce the issue.
    Ms. Napolitano. Yes, helping mitigate the risk is 
important. And also, I think we ought to be exploring what the 
Federal Government can do and is doing by way of attribution, 
to help find the source of these attacks, so that an 
appropriate response can be constructed.
    Senator Hassan. Thank you.
    Mr. Johnson. I think the single best thing that anyone can 
do in that situation is raise the level of awareness about 
security among the people that use the system. You would be 
surprised the number of people who do not know how to respond 
to a suspicion e-mail, and a lot of these attacks begin with an 
act of spear phishing.
    Somebody opened an e-mail or an attachment that they should 
not have been opened. So, simply raising the level of awareness 
among people that we entrust with the system goes along way.
    Senator Hassan. Thank you. I am pleased to report that our 
county officials did recognize a phishing e-mail when they got 
it, and they had a pen and pencil backup system in place as 
they shut things down. But it is going to be something that we 
need to focus on.
    Thank you all again for your service and testimony here 
today.
    Chairman Johnson. Senator Hawley.

              OPENING STATEMENT OF SENATOR HAWLEY

    Senator Hawley. Thank you, Mr. Chairman.
    Secretary Johnson could I just ask you one more time to 
tell us about your guest, your special guest that is with you.
    Mr. Johnson. His name is Roger Parrino, sitting right 
there. He does not like to be the center of attention. He is a 
Marine, and I met him when we worked drug cases together 30 
years ago. And on September 11 2001, he was a New York City 
police detective working in Midtown, and saw what was 
happening, ran into harm's way and frankly was almost one of 
the people that we had a moment of silence for; and was the 
recipient of the Medal of Valor from the Mayor. And he went on 
at my recommendation to be a appointed by Governor Cuomo, to be 
Commissioner of Homeland Security for New York State.
    Senator Hawley. Thank you for that.
    And Detective Commissioner, I thought that it would be 
appropriate that we may take a moment to honor you.
    I notice as I look around here, I see men and women wearing 
the uniform of the United States, I see some of New York's 
Finest here. I got to talk to some of the families of the 
survivors.
    This building, this place is such a monument to the courage 
of folks like you who put on this uniform and who protect us 
every day, and who run toward danger. And here you are a living 
monument to that. So, I don't want to miss this opportunity to 
say ``thank you'' for what you did, and to give everybody here 
a chance to say to you, and to all of you here in this building 
who are wearing a uniform, who are protecting us and serving 
us, ``thank you'' for protecting us.
    Thank you for representing the best of New York and the 
best of America. So thank you very much.
    [Applause.]
    I do want to raise an issue now that has not been raised 
yet, but is extremely important to I believe the security of 
the American homeland and certainly to the security of my 
State. I represent the State of Missouri.
    I spent part of my time in August when I was home in 
Missouri traveling around some of the most economically 
distressed communities, counties in my State--the 114 counties 
in Missouri, and I chose to visit those, who do not normally 
get visits from the press and the media, and so forth.
    And something that every single person, every single one in 
every single community that I visited told me about was the 
epidemic of drug abuse that is crippling and killing entire 
communities. Literally killing. Families, schools, it is 
unbelievable.
    And in my State it is overwhelmingly meth, and it is coming 
according to the Federal Government, it is coming 
overwhelmingly across the Southern Border.
    And just according to the 2018 DEA National Drug Assessment 
report, most of the meth available around the country, 
certainly in the State of Missouri, is produced in Mexico and 
is smuggled across the Southwest Border.
    Missouri has seen a 52 percent increase in meth addiction 
treatment admissions in the last 7 years, according to the 
Substance Abuse and Metal Health Services Administration. It is 
hard for me to describe to you unless you were to visit, and to 
see what this epidemic of drug abuse is doing to the towns and 
families and schools in my State, what a crisis this is.
    And so I want to ask about what we give voice first of all 
to that crisis, and ask what it is that we can do to address 
this very real crisis that is being driven by what is going on 
at the border.
    Secretary Napolitano, let me start with you. I think that I 
must have misunderstood you. I read your testimony, I heard you 
say in your opening remarks that you did not think that the 
border represents any threat to the homeland. I must have 
misunderstood, because surely you could not have meant that the 
people in my State who are losing their lives, losing their 
children, losing their family members, the law enforcement who 
are completely overwhelmed by this epidemic that is coming 
across the border.
    I mean, surely that constitutes a threat to the security of 
the people of this country.
    Do you not agree with that?
    Ms. Napolitano. Look, I think that the border as I said it 
is a zone to be managed. It is certainly an area where law 
enforcement needs to be engaged in terms of drug smuggling and 
gun smuggling and the like.
    It requires a whole of government effort. It requires 
partnership with Mexico in terms of how the ports themselves 
are managed, and that is where when smuggling occurs, the bulk 
of it occurs through the ports of entry.
    It requires using the best available technology for 
inspection of vehicles and for manifesting of cargo and the 
like. But, what I mean to suggest is that the border itself is 
not the number one threat to the safety and security of the 
American people, despite the overwhelming public attention 
being drawn to the border as the function of DHS.
    Senator Hawley. You think that it is a threat. You said in 
your testimony both this morning, and the written testimony, 
that you did not think that it was a threat at all. It is the 
number one threat or no threat. But ``it is not a threat to 
homeland security.''
    I cannot understand that. And what concerns me about it is, 
it seems to be increasingly the position of some members of 
your party who say it is also not a threat at all. And I do not 
understand how that can be the case, given the threat that my 
State and the people in my communities are facing.
    If we do not do something to stem the flow of illegal drugs 
across that border, I do not know what these folks are going to 
do. I just do not understand when people say, it is just not a 
threat.
    Ms. Napolitano. I think that we have to look at areas of 
agreement.
    Senator Hawley. But is it a threat? Can we agree on that?
    Ms. Napolitano. We can all agree that we deserve a safe and 
secure border, that the border needs to be enforced. And you 
will not get any question about that from me. The way that I 
wrote my testimony, however, was to say that the border is a 
zone, it is a zone to be managed in terms of threat.
    But it is not the number one threat to the safety and 
security of the American people. When you talk about drugs, 
right, and I understand the opioid epidemic and the meth 
epidemic, I was a local State prosecutor and I was a Federal 
prosecutor.
    I understand this phenomenon very well. I reach out and 
sympathize and empathize with the people of Missouri and other 
States across this country, who have experienced the 
devastation caused by this epidemic.
    I think what we need to be looking for is, how do we 
prevent the importation of drugs, how do we deal with addiction 
as a disease, as a country.
    And that is really where the threat is. Not in terms of 
overall border management, not in terms of a wall between the 
United States and Mexico.
    Senator Hawley. Thank you, Mr. Chairman. I see that my time 
has expired.
    Chairman Johnson. Thank you, Senator Hawley.
    We really do not have time for another round of questions 
and this thing could go on literally for hours. I would like to 
afford all three of you an opportunity to, if there is 
something that we did not talk about.
    And as we discussed last night, and I think it is pretty 
apparent here today, the fact that you are willing to offer 
your time, your counsel, your advice--first all, this Committee 
appreciates it and we would appreciate it in the future.
    That is a solid offer. I mean, I would love to have you 
work with us to move this country forward. But, we will start 
in reverse order with Secretary Johnson, if you have a few 
closing comments, please make some.
    Mr. Johnson. As a former public servant, I guess that I 
would plead with all of you who are today in the U.S. Congress 
in positions of power, what I have observed happening over the 
last couple of years is that we do not seem to have--except at 
levels that the public does not appreciate--we do not seem to 
have enough opportunities to reach across the aisle and achieve 
something that requires political risk and is politically hard.
    It was not that long ago that we came very close to 
comprehensive immigration reform. The Senate passed it by 68 
votes. There was a lot of Democrats and a lot of Republicans, 
on the recognition that immigration reform included both a path 
to citizenship, Deferred Action for Childhood Arrivals (DACA) 
take care of the Development, Relief and Education for Alien 
Minors (DREAMers), and border security, and smart border 
security.
    And people on both sides of the aisle were willing to 
coalesce around both those principles and a lot in between. 
What I observe happening now is very few people are willing to 
do that any more, and everyone is standing in their corners 
screaming at each other, as the positions on both sides become 
more and more absurd, to the disservice of the American people 
that you were elected to serve.
    And that is reflective of a lot of other issues in my 
judgment. And so my plea as a private citizen is to tone down 
the rhetoric. I think that this committee in particular is an 
excellent place to do that, because I do know that you try to 
operate in a bipartisan way.
    Please tone down the rhetoric in Washington and take care 
of the people's business. Thank you.
    Chairman Johnson. Thank you, Secretary Johnson.
    Secretary Napolitano.
    Ms. Napolitano. I think that the greatest service that this 
Committee can give is to help revise a strategic oversight of 
the entire Homeland Security enterprise.
    What are the greatest risks facing the country; how are 
they best mitigated? What resources are necessary to make sure 
that we are as safe as we can be albeit, we will never be risk 
free, and we live in an open society.
    But I think if this Committee can occupy that overall kind 
of board of directors role, it would serve the Department well.
    Chairman Johnson. Secretary Chertoff.
    Mr. Chertoff. Mr. Chairman, I would be delighted to accept 
your invitation to continue to work with Committee on these 
issues. It means a lot to have this hearing here because I 
vividly remember in the days, hours and days and weeks after 9/
11 how the country came together.
    And we recognized that this was not an attack on people of 
one party or one religion or one national origin, but on all 
Americans. And I remember being with Congress, a few days 
afterwards, in the House chamber, both the Senate and the House 
present, Republicans and Democrats all unified in terms of 
their attitude to this.
    One of the privileges that I had as Secretary, was to go to 
Camp Victory in Iraq, and swear in new American citizens 
wearing the U.S. Army uniform. They came from all over the 
world, some of them actually were from the region--from all 
religions, and they were legal, they had green cards and they 
qualified for citizenship and they stood in uniforms, not far 
from where there was live fire taking the oath of American 
citizenship.
    And to me that is what America is about. It is what binds 
us together as not a national origin or religion or ethnicity, 
but belief in a common set of values. And so I think that it is 
important when we think about Homeland Security to recognize it 
begins with unity-of-effort, not just within the Department but 
within the country.
    And that ought to be a requirement number one, for 
everybody to reemphasize and to underscore that we are a nation 
bound by common values in a common constitution, and that is 
what makes us great. That is what motivated the people that we 
celebrated in this hall. And that is something that we need to 
continue to cherish and uphold. Thank you.
    Chairman Johnson. Thank you.
    Senator Peters, do you have a few closing remarks?
    Senator Peters. Thank you, Mr. Chairman for holding this 
hearing, and your staff, who have done an outstanding job 
putting this all together.
     I also want to thank Alice Greenwald, again, as well as 
your tremendous staff as well as volunteers for this amazing 
place, that allows us to pay honor to those who lost their 
lives here, and also to continue to educate us as to what 
happened here, and why we must never forget, and make sure that 
this never happens again.
    I understand that your job is going to become more 
difficult as the next generation comes along who looks at this 
as history, and not something as vivid as, in the minds of, as 
it is with all of us here today. But if we do not educate the 
next generation, then that leads to the potential of it 
happening again. And it must never happen again.
    So, you are involved in a very important mission, with you 
and your staff. Thank you for having us here, and to the 
Secretaries for your testimony today.
    I think that all three of you in your wrap-up said it 
extremely well, and something that I take to heart as I work on 
this Committee to understand that the Department of Homeland 
Security has one of the toughest jobs you can possibly have in 
the Federal Government.
    Because you have to do two things. First off you have to 
keep us all safe. And to me that is the number one job of the 
Federal Government is to keep Americans safe from harm. And 
that has to be first and foremost on the mission. But you also 
have to balance it with the things that you all three 
mentioned: the values that have built this country. That we are 
a free society. What makes the United States so special is that 
we are an open and free society. And we have to endeavor to 
keep America safe, while also protecting Constitutional rights 
to protect civil rights.
    That is a balancing job that is incredibly difficult to 
accomplish and one that we are going to have to constantly work 
at to make sure that we can achieve that right balance. The 
other thing that we must do for the Department of Homeland 
Security while you are keeping it safe is you have to make sure 
that the economy is robust and moving forward.
    I know on the borders in Michigan, some of the busiest 
borders in North America, the folks there have to keep us safe 
while making sure that commerce is getting there on time and 
our just-in-time deliveries for the auto companies are there 
right when they go on the assembly line.
    Any kind of delay ripples throughout the whole supply 
chain, so they are watching that very closely. But at the same 
time, you have to keep us safe. So this is a very tough job.
    And I thank you for your service to the country. I thank 
you for your willingness to continue to work with us. Because 
as we deal with a rapidly changing world, and rapidly changing 
threats, it is always important to step back and remember where 
we came from, understand the lessons that we learned in the 
past, so that we can apply those lessons to the future.
    So thank you for your service, thank you for being here.
    Chairman Johnson. Thank you, Senator Peters.
    Again, I would like to start by again thanking the 
Secretaries. It is an overwhelming job. It is a responsibility 
that each one of you assumed and every Secretary assumes, it is 
hard to contemplate. You will just get blamed for some 
failures, and you do not get a whole lot of credit for success.
    So, I truly appreciate your past service and again your 
willingness to consult this Committee in the future.
    Again, I want to thank Alice Greenwald and everybody that 
has worked on this amazing and remarkable place.
    If you are an American watching this hearing, come here. 
You need to be reminded. It is true that we can never forget. 
And the thought that went into this place--as we walked down 
into this chamber, the way that those first responders did, 
what really struck me were those pictures of the people that 
day in New York all fixated on the exact same thing as we were 
told that two billion other people around the world watched, in 
real time, the tragedy of that day.
    But, as others have remarked, we have the first responders, 
we have the members of the military--to me we had great dinner 
last night, and we all went around the table. I think it was 
Senator Peters and Senator Romney's idea, let us all go and 
describe what you were doing 9/11, those of us who are alive, 
we all remember it.
    I was in our office looking at the television, and making 
probably the exact same comment that probably two billion 
people made or thought, this changes everything. But then in 
the days that followed that, the pictures that emerged of the 
fire fighters, the Port Authority, the cops, in New York City, 
``The Responders,'' walking up the steps, rushing into danger 
to save their fellow Americans.
    As we watched the finest among us, the men and women in the 
military also respond and volunteer and go halfway round the 
world to not only defend our freedom, but literally trying to 
develop freedom and liberty and democracies, for people that we 
had no idea who they were.
    That is something pretty unique about America. We are not 
perfect. But I happen to think that we are a phenomenal force 
of good in the word.
    In the midst of tragedy, not just 9/11, every mass 
shooting, every hurricane, every national disaster always seems 
to bring out the examples of the goodness of the American 
people. To me that is what this hearing is about.
    And this is what our responsibility is to not only preserve 
this good nation for future generations, to make sure that it 
thrives, that is our responsibility. That is what we dedicate 
this Committee to do.
    So, again I just want to thank everybody for attending. I 
want to thank everybody for their service. And we will just 
conclude by saying, God Bless America.
    Now I have to read this statement.
    The hearing will remain open for 15 days until September 24 
at 5 p.m., for the submission of statements and questions for 
the record.
    This hearing is adjourned.
    [Whereupon, at 12:03 p.m., the Committee was adjourned.]

                            A P P E N D I X

                              ----------   
                              
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]                              



                                 <all>
</pre></body></html>
